September 24, 2010

KELLY M. SIGMON
VICE PRESIDENT, ENGINEERING

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Vehicle Parts Program (Report Number DR-AR-10-008)

This report presents the results of our audit of the Vehicle Parts Program (Project
Number 10XG004DR000). Our objective was to evaluate the vehicle parts purchasing
and inventory management process. This self-initiated audit addresses financial and
operational risks. See Appendix A for additional information about this audit.

The U.S. Postal Service has a fleet of more than 211,000 vehicles and spends more
than $270 million annually for parts to repair and maintain these vehicles. Although
some parts are obtained from local commercial sources, approximately $145 million a
year is spent on parts purchased from two main consignment suppliers. The Postal
Service’s vehicle parts purchasing process established in 1997 through consignment
suppliers provided the Postal Service with a reliable, more consistent means of
acquiring and managing vehicle parts assets. In each district, vehicle maintenance
facility (VMF) unit officials are responsible for securing and safeguarding consignment
parts and Postal Service owned parts.

Conclusion

Although the vehicle parts purchasing process has significantly reduced Postal Service
costs for vehicle parts, the audit identified the Postal Service did not always pay the
lowest price for vehicle parts and vehicle part assets were at risk in some VMF units.1
These conditions occurred because of inadequate processes, unclear purchasing
policies, and resource constraints, as well as insufficient internal controls to secure
vehicle parts assets in some VMF inventory stockrooms.




1
    We visited 16 VMFs during our review.
Vehicle Parts Program                                                                         DR-AR-10-008



Purchasing of Vehicle Parts

The process of purchasing vehicle parts could be more effective. Our comparison of
100 similar parts2 from the two consignment suppliers revealed the Postal Service paid
$3.6 million or 17 percent more than necessary for vehicle parts. Further, Vehicles
Category Management Center (CMC) personnel were unaware of alternate sources
used by VMFs to purchase vehicle repair parts at a lower cost than parts provided by
the two consignment part suppliers.

These conditions occurred because Postal Service Headquarters Vehicles CMC and
Vehicle Programs Management did not:

        Consistently monitor, analyze, and obtain vehicle part price information between
         the two consignment suppliers for those parts that met the form, fit, and function
         criteria.

        Ensure VMFs had clear and consistent policy regarding purchasing parts from
         consignment suppliers and alternate sources for parts.

        Consistently obtain feedback from VMFs on lower cost alternate sources used to
         purchase vehicle repair parts and provide the information to CMC.

Purchasing vehicle parts at a lower cost between the two major consignment suppliers
based on form, fit, and function as well as from alternate sources could reduce vehicle
parts cost by $17,488,469. See Appendix B for our detailed analysis of this topic and
Appendix C for our calculation of monetary impact.

We recommend the vice president, Supply Management in coordination with the vice
president, Engineering:

1. Establish a process to analyze similar vehicle parts by form, fit, and function from the
   two consignment suppliers to aid in negotiations with suppliers, as necessary, to
   ensure the Postal Service receives the lowest available cost on vehicle parts.

2. Communicate consistent clear policy to vehicle maintenance facility personnel on
   purchasing vehicle parts from consignment suppliers and alternate sources to
   ensure the Postal Service pays the lowest price for vehicle parts.




2
 Our comparison of 100 similar parts focused on the parts identified that had a price per unit variance of more than
10 percent and had the largest net cost difference between the two main consignment suppliers.




                                                          2
Vehicle Parts Program                                                                         DR-AR-10-008



We recommend the vice president, Engineering:

3. Require Headquarters Vehicle Programs solicit feedback from vehicle maintenance
   facilities regarding vehicle part purchases from alternate sources and provide this
   data to Vehicles Category Management Center to ensure the Postal Service obtains
   the lowest price for vehicle parts.

Vehicle Parts Assets

Our review disclosed that 13 of the 16 VMF units3 visited had assets at risk. Specifically,
we found:

        VMF management did not always control access and secure vehicle part storage
         locations at nine of the VMFs.

        No internal controls (for example, lack of separation of duties) for receipt,
         disbursement, and inventorying of vehicle part assets at 10 of the VMFs. See
         Appendix B for our detailed analysis of this topic.

As a result, vehicle parts assets valued at more than $13 million were at risk during
calendar year (CY) 2009. See Appendix C for additional information about this issue.

We recommend the vice president, Engineering:

4. Re-emphasize stockroom management policies and procedures on physical security
    and inventory management policies for vehicle part assets, to include separation of
    duties, in accordance with Handbook AS-701, Material Management.

Management’s Comments

Management agreed in principle with the findings, recommendations, and monetary
impact in our report.

In response to recommendation 1, management stated that the Postal Service will
establish a process to analyze similar parts by form, fit, and function between
consignment suppliers to identify, discuss, and if necessary, negotiate lower prices
where significant price variances exist. Management further stated they are in the
process of standardizing the parts lists in implementing the vehicles and vehicle parts
phase within the Solutions for Enterprise Asset Management system that is scheduled
for deployment in fiscal years (FYs) 2011 and 2012 by Asset Management. Once they
have completed this system, information will be available to support the complete
analysis for this recommendation. In the interim, they will analyze parts with the same
part number identified with the price variances provided during the U.S. Postal Service
3
  Six of the 16 VMF units met both conditions. Three of 16 VMF units had insufficient physical access restrictions and
four of 16 VMF units had insufficient inventory controls.




                                                          3
Vehicle Parts Program                                                  DR-AR-10-008



Office of Inspector General (OIG) audit. Management estimated the completion date for
the price adjustment of parts identified in this audit is February 2011.

In response to recommendation 2, management stated they will publish a Vehicle
Maintenance Bulletin (VMB) to clearly communicate policy requirements and
management responsibilities to purchase vehicle repair parts in the most cost effective
manner. Management estimated the VMB will be published by November 2010.

In response to recommendation 3, management agreed with the intent of the
recommendation and stated that obtaining the lowest purchase price may not always
yield the lowest total cost; and, therefore, alternate sources would require further
evaluation to ensure the Postal Service receives the lowest total cost. However,
management stated they will include instructions for informing Headquarters Vehicle
Programs of opportunities for alternative suppliers in the above-mentioned VMB
publication.

In response to recommendation 4, management stated they would emphasize security
and purchasing procedure guidelines in the above-mentioned VMB publication.

Management also stated that the monetary impact identified is based entirely on the
purchase price without consideration of inventory costs, shipping, or lifecycle/failure
rate, and, therefore, cannot be confirmed, and that the lowest purchase price may not
always yield the lowest total cost. See Appendix D for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions taken and planned should resolve the issues identified
in the report.

Management stated that the monetary impact identified was based entirely on the
purchase price without consideration of inventory costs, shipping, or lifecycle/failure
rate, and, therefore, cannot be confirmed. Further, the lowest purchase price may not
always yield the lowest total cost. Although we agree that the lowest purchase price
may not always yield the lowest total cost, our analysis did in fact account for these
costs. Specifically, our monetary impact calculation included a 10-percent cost
adjustment to account for any inventory and shipping costs associated with acquiring
parts from sources other than the current consignment supplier. This, in addition to the
lower priced parts, could more than offset any inventory and shipping costs. Regarding,
management’s concern about lifecycle/failure rate, this should not be a factor as long as
the Postal Service continues to use the criteria of purchasing parts with the same form,
fit, and function. For example, when purchasing from an alternate source, the Postal
Service would want to validate the quality and effectiveness of the parts before
considering it for maintenance and repairs of vehicles.




                                            4
Vehicle Parts Program                                                   DR-AR-10-008




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Edward L. Gamache
    Susan A. Witt
    Lisa C. Reed
    Corporate Audit and Response Management




                                             5
Vehicle Parts Program                                                                     DR-AR-10-008




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service spends more than $270 million on vehicle parts for repairing and
maintaining its fleet of over 211,000 vehicles. Because the delivery vehicle fleet is
approaching the end of its useful life, parts purchases have increased. In 2006, the
Postal Service standardized its strategy for purchasing vehicle parts.

The Postal Service’s vehicle parts purchasing process established in 1997 uses
consignment suppliers. This process has provided the Postal Service with a reliable,
more consistent means of acquiring and managing vehicle parts assets. The Postal
Service acquires most vehicle parts via consignment from two primary suppliers:
Wheeler Brothers, Incorporated; and Jasper Innovative Solutions, Incorporated
(formerly Mac Motors). Wheeler Brothers, Incorporated, is the consignment supplier for
about              of the Postal Service’s 322 VMFs, and Jasper Innovative Solutions,
Incorporated, is the consignment supplier for about           . The consignment
process eliminated the need to store, stock, and manage more than $200 million in
annual inventory (capital assets). Management estimated that the vehicle parts
consignment process has reduced Postal Service costs for vehicle parts by $120 million
in the last 10 years. Purchasing parts on a consignment basis is encouraged in an effort
to reduce the overall value of the Postal Service-owned inventory of VMF units.

Although the majority of spare parts for vehicles are acquired through consignment
suppliers,4 VMF unit management also acquires and maintains spare parts from other
sources. The Postal Service manages and accounts for these parts through the Vehicle
Management Accounting System (VMAS). Postal Service policies and procedures
require VMF unit personnel to ensure they safeguard all assets; record correctly,
quantities purchased and inventoried; and investigate and correct discrepancies.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the vehicle parts purchasing and inventory management
process. To accomplish this objective, we:

       Obtained data on vehicle parts purchased in CY 2009 through consignment
        suppliers from the Vehicles CMC.

       Compared key elements of consignment supplier data to Enterprise Data
        Warehouse data to verify its integrity.



4
  Each VMF unit is required to select a main consignment vendor and encouraged to purchase any parts available
through the consignor even when other, more cost-effective sources are readily available.




                                                        6
Vehicle Parts Program                                                  DR-AR-10-008



      Performed cost comparison analysis of the prices for 100 vehicle parts with the
       same form, fit, and function from both consignment suppliers. We judgmentally
       selected the parts based on their price variance in either net cost or percentage
       cost per unit.

      Calculated the value of vehicle part assets using VMAS data.

      Performed cost comparison analysis of vehicle parts locally purchased by VMFs
       compared to parts procured from the two consignment suppliers.

      Additionally, we visited 16 judgmentally selected VMF units in four areas. We
       randomly selected parts to check the accuracy of on-hand balances and
       observed physical access controls. We also interviewed management to discuss
       the process of conducting inventories to determine adherence to separation of
       duties and other inventory management procedures.

We conducted this performance audit from October 2009 through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 4, 2010, and included their
comments where appropriate.

We assessed the reliability of vehicle parts data by reviewing various data elements and
interviewing personnel knowledgeable about the data and the parts purchased. To
verify consignment suppliers’ cost data, we compared the costs each consignment
company reported as purchased to internal data systems. We determined that the data
were sufficiently reliable for the purposes of this audit.




                                            7
      Vehicle Parts Program                                                         DR-AR-10-008




      The OIG has issued two reports related to our objective in the last several years.

      PRIOR AUDIT COVERAGE

                                       Final Report        Monetary
  Report Title       Report Number                                                  Report Results
                                           Date             Impact
Estimated Supply     CA-MA-05-002 9/7/2005                   None        Management agreed that the cost
Chain                                                                    avoidance expected for a contract for
Management                                                               office supplies was overstated, in part,
Impact                                                                   to not obtaining the best available price
Associated With                                                          available on an office supply contract.
National Office
Supply Contract
Delivery Vehicle     DA-AR-10-005 6/16/201      0         $342,127,370   Management agreed that rising delivery
Replacement                                                              vehicle repair costs are not always
Strategy                                                                 within established thresholds, because
                                                                         approval procedures were not always
                                                                         being followed. When repair costs
                                                                         exceed the threshold, we
                                                                         recommended replacing vehicles in lieu
                                                                         of making costly repairs.




                                                      8
Vehicle Parts Program                                                                       DR-AR-10-008



                                APPENDIX B: DETAILED ANALYSIS

Purchasing of Vehicle Parts

The Postal Service’s vehicle parts purchasing process did not ensure the Postal Service
paid consignment suppliers the lowest price5 for vehicle parts. Further, some VMF units
purchased similar vehicle repair parts from alternate sources at lower prices than the
two consignment suppliers offered.

Consignment Suppliers

Our comparison of 100 similar parts from the two consignment suppliers revealed the
Postal Service paid $3.6 million or 17 percent more than necessary for vehicle parts. To
illustrate, for the 10 sample parts shown in Table 1, the Postal Service would have
saved $369,863 in CY 2009 if it had obtained the lower prices. For example:

       The Postal Service purchased        lower control arms from the two primary
        consignment suppliers. The price varied by 140 percent for this part.

       The Postal Service purchased           exhaust clamps from the two primary
        consignment suppliers to repair long-life vehicles (LLVs) during 2009. While one
        of the consignment suppliers charged            for the units, the other charged
               for the part, a 421-percent price difference.




5
 The Postal Service’s Supplying Principles and Practices dated February 2010; Section 2-8.7 states “Identify
purchase price variances” as a means of identifying opportunities when conducting cost analysis.




                                                         9
         Vehicle Parts Program                                                                        DR-AR-10-008




                      Table 1. Sample of CY 2009 Parts Purchased and Price Differences

                               Consignor A                 Consignor B                                                            Estimated
                                                                                                                Cost From
                                                                                   Percentage                                      Savings
                                                                                                Total Units     Not Using
   Part Description                                                                   Cost                                      From Buying
                         Cost per       Quantity       Cost per         Quantity                Purchased         Lower
                                                                                   Difference                                    Lower Cost
                           Unit        Purchased         Unit          Purchased                                Cost Parts                6
                                                                                                                                    Parts
ARM CONTROL LWR                                                                                                   $381,648         $196,208
BLADE WIPER                                                                                                   55,220                 28,844
BRK EXH MUFFHGR                                                                                               42,788                 13,961
CAP COOLNT RCV                                                                                                10,567                  7,984
CLAMP EXH CNV 2                                                                                                        37,069        29,090
CNCTR TRANS                                                                                                   24,760                 10,661
END TIE ROD                                                                                                   18,149                 11,379
FILTER FUEL                                                                                                   219,633                12,124
FILTER TRANS                                                                                                  15,411                  8,119
HANDL WND CRNK                                                                                                115,005                51,492
Total                                                                                                             $920,249         $369,863
Source: OIG analysis

         This condition existed primarily because Postal Service Headquarters Vehicles CMC
         and Vehicle Program Management did not always monitor and analyze vehicle parts
         price variances between the two primary consignment suppliers based on the criteria of
         form, fit, and function.7 According to management, price variances between the two
         consignment suppliers are usually based on brand name or whether the official
         equipment manufacturer made the part. Management also indicated, in some cases, the
         consignment supplier might have received a discount based on the quantity of particular
         parts they purchased and passed the savings on to VMF units. Although we agree that
         brand name and manufacturer of the part could impact price, it is not pertinent in this
         case, because both consignment suppliers provide parts that meet the Postal Service’s
         form, fit, and function criteria. Furthermore, even though volume purchasing discounts
         were not apparent in the 100 items reviewed, our analysis considered factors of this
         nature and only included price differences exceeding 10 percent.

         Alternate Sources

         Major electrical components such as starters that VMF units purchased from an
         alternate source were less costly than those offered by either of the two major
         consignment suppliers. For example, in CY 2009, the Postal Service purchased more
         than         starters for the LLVs nationwide from one of the consignment suppliers at a

         6
           This savings are calculated based on purchasing the higher priced consignors quantity at the lower consignor's
         price plus 10 percent.
         7
           Headquarters Vehicle Programs management informed us that the new data system (Solution for Enterprise Asset
         Management) will replace VMAS near the end of FY 2011. Management indicated the new system should allow for
         more comparisons of similar parts among the two consignment suppliers.




                                                                  10
        Vehicle Parts Program                                                                          DR-AR-10-008



        cost of almost       each. Purchasing these starters from the alternate source at
        (about 14 percent less), would have saved the Postal Service $848,011. Further, our
        analysis showed if the Postal Service had acquired all starters from the alternate
        source, they could have saved $1,027,031. See Table 2.

            Table 2. Comparison of Consignment Suppliers and Alternate Sources for Major
                            Electrical Components Purchased in CY 2009
                                                                                         Total           Total
                               Cost Per     Cost Per                                                                   Estimated Savings
                   Quantity                              Difference                  Consignment       Alternate
    Part                        Unit by      Unit by                  Percentage                                       if Alternate Source
                   Sold in                              in Cost Per                  Supplier Cost    Source Cost
 Description                  Consignment   Alternate                 Difference                                          Used for Lower
                    2009                                    Unit                       to Postal       to Postal
                                Supplier     Source                                                                         Cost Parts
                                                                                        Service         Service
STARTER,
                                                                                       $5,932,011 $5,08        4,000 $84            8,011

STARTER,
                                                                                           1,079,071 925,5       00              153,571

STARTER,
                                                                                   205,0         74          179,625               25,449
Total Consignment Supplier Costs Versus Alternate Source Costs                         $7,216,156      $6,189,125             $1,027,031
Source: OIG analysis

        Two factors contributed to this condition:

                   Although 18 VMFs purchased electrical components such as distributors and
                    starters from an alternate source, Vehicles CMC officials were unaware of these
                    purchases. VMF unit officials at locations that used the alternate sources
                    indicated that they purchased parts at reduced costs and the parts met the
                    requirements in terms of form, fit, and function.

                   VMF unit officials lacked clear and consistent policy9 on purchasing parts from
                    primary consignment suppliers and alternate sources. Specifically, Vehicles CMC
                    officials issued a letter to VMF units stating that purchasing preferred parts from
                    local suppliers as an alternative to parts provided by the consignment suppliers
                    was prohibited.10 However, Postal Service Headquarters Vehicle Programs
                    officials told us that this letter only prohibits VMF units from purchasing “preferred
                    parts from other sources.” VMF units have the flexibility to purchase parts from
                    an alternate supplier, other than the two primary consignment suppliers, when
                    the price was more cost effective. Headquarters Vehicle Programs officials have
                    not issued an official written policy on using alternate sources.



        8
          Prices in Table 2 are per unit. Further discounts are offered if purchased in quantities of four or more.
        9
          Our analysis of a judgmental sample of 32 VMFs showed that 19 (about 59 percent) were unaware they could
        obtain parts from a consigner other than the one assigned or from alternate sources when the price was more cost
        effective.
        10
           Vehicle CMC standardization criteria letter, dated May 2006, prohibits purchasing preferred parts from local
        suppliers as an alternative to purchasing approved parts from managed inventory providers (consignment suppliers).




                                                                11
Vehicle Parts Program                                                                        DR-AR-10-008



Purchasing vehicle parts at a lower cost between the two major consignment suppliers
based on form, fit, and function as well as from alternate sources could reduce vehicle
parts cost by $17,488,469. See Appendix C for the monetary impact. 

Vehicle Parts Assets

Physical safeguards and inventory management controls over vehicle parts at 13 of 16
VMF units were not always adequate.

      Access to vehicle parts11 storage locations was not restricted at nine of the VMF
       units. At one location, three separate entry points had no access restriction.
       Management at these locations were either unaware of the requirement or had
       not considered the potential risk.

      Separation of duties for receipt, disbursement, and inventorying of vehicle parts
       assets was not adequate at 10 of the VMF units. In many cases, personnel
       responsible for receiving, maintaining, and issuing parts were also conducting the
       monthly mandatory inventory. VMF unit officials indicated that staffing constraints
       led to not providing the required separations of duty.

As a result, assets valued at $13,047,909 were potentially at risk during CY 2009. See
Appendix C for the value of assets at risk for VMF units.




11
   Handbook AS-701, Section 434.4 identifies methods to protect stock from loss, to include directing limited access
to stockrooms.




                                                         12
  Vehicle Parts Program                                                                          DR-AR-10-008




                   APPENDIX C: MONETARY AND NON-MONETARY IMPACT

                            Table 3. Monetary and Non-Monetary Impact12

                           Finding                       Impact Category                  Amount
                  Vehicle Parts Purchasing           Funds Put to Better Use13             $9,257,751
                  Vehicle Parts Purchasing           Unrecoverable
                                                                                           $8,230,719
                                                     Questioned Costs14
                  Vehicle Parts Assets               Assets at Risk 15                    $13,047,910
                  Source: OIG analysis

We estimated a monetary impact of $17,488,469 in unrecoverable questioned costs and
funds put to better use by obtaining cheaper prices on the same products. This amount
includes approximately $8.2 million in questioned costs in 2008 and 2009, and $9.2 million
in funds put to better use in 2010 and 2011 (see Table 4).

                              Table 4. Vehicle Parts Estimated Savings16
                                                                                                     Estimated
                         Finding                                  Impact Category
                                                                                                      Savings
       Vehicle Parts Price Comparison – 2008            Unrecoverable Questioned Costs                 $3,601,844
       Vehicle Parts Price Comparison – 2009            Unrecoverable Questioned Costs                  3,601,844
       Alternate Source – 2009                          Unrecoverable Questioned Costs                  1,027,032
       Vehicle Parts Price Comparison – 2010            Funds Put to Better Use                         3,601,844
       Vehicle Parts Price Comparison – 2011            Funds Put to Better Use                         3,601,844
       Alternate Source – 2010                          Funds Put to Better Use                         1,027,032
       Alternate Source – 2011                          Funds Put to Better Use                         1,027,032
       Total                                                                                          $17,488,469
       Source: OIG analysis




  12
     Totals may not add up due to rounding.
  13
     Funds that could be used more efficiently by implementing recommended actions.
  14
     Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
  15
     Physical operations assets (for example, plant computer equipment or vehicles) that are unsafe or at risk of loss
  because of inadequate physical protection or safety practices.
  16
     Totals may not add up due to rounding.




                                                            13
Vehicle Parts Program                                                                           DR-AR-10-008



We estimated a non-monetary impact of $13,047,909 in assets at risk due to
inadequate security and safeguarding of assets (see Table 5).

                                           Table 5. Assets at Risk

                    Finding                   Impact Category         Estimated Assets at Risk
            Safeguarding of Assets     Physical Safety and Security                   $13,047,910
            Source: OIG analysis of site visits and VMAS documentation for value of assets at risk.

Our review included a visit to 16 VMF unit locations. At nine of the 16 locations, we
identified physical access weaknesses to the vehicle repair and maintenance parts
stored at the VMF units. Ten of the 16 VMF units also had inventory control
weaknesses. We calculated the value of the parts issued during CY 2009 for each of
the VMF unit locations that had one or both of the risk factors identified (see Table 6).

                    Table 6. VMF Units Visited and Value of Assets at Risk17

                                                                                       Value of Assets At Risk in
     Area           VMF Unit Visited             Assets At Risk Category18
                                                                                                CY 2009
                  Dallas Main                 None                                                            $0
                  Fort Worth Main             Physical                                                 1,329,663
Southwest
                  Coppell Auxiliary           Physical                                                   605,430
                  Tyler                       Physical & Inventory Controls                              441,776
                  Birmingham Main             Inventory Controls                                       1,640,207
                  Montgomery                  Physical & Inventory Controls                              703,761
Southeast
                  North Metro                 Inventory Controls                                       2,552,841
                  Decatur Auxiliary           Physical & Inventory Controls                              849,371
                  Portland Main               None                                                              0
                  Vancouver Auxiliary         Inventory Controls                                         159,599
Western
                  Seattle Main                Inventory Controls                                       1,035,035
                  Tacoma Physical                                                                      1,148,030
                  Anaheim                     Physical & Inventory Controls                              669,962
                  Santa Ana                   Physical & Inventory Controls                            1,256,704
Pacific
                  San Francisco               None                                                              0
                  San Mateo                   Physical & Inventory Controls                              655,532

                                                13 VMF Units with Assets at
Total                                                                                                   $ 13,047,910
                                                           Risk
Sources: OIG analyses of site visits and VMAS documentation for value of assets at risk.




17
  Totals may not add up due to rounding.
18
  Definition for at risk categories, physical-access to stock room was not restricted and Inventory Control Unit did not
have separations or duties for issuing stock or conducting inventories.




                                                           14
Vehicle Parts Program                                       DR-AR-10-008



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                       15
Vehicle Parts Program        DR-AR-10-008




                        16
